BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Brief in Opposition in
19-404, David Seth Worman, et al. v. Maura T. Healey,
in Her Official Capacity as Attorney General of the
Commonwealth of Massachusetts, et al., were sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 6th day of
December, 2019:
John Parker Sweeney
Bradley Arant Boult Cummings, LLP
1615 L Street NW, Suite 1350
Washington, DC 20036
(202) 719-8216
jsweeney@bradley.com
Counsel for Petitioners
MAURA HEALEY,
Attorney General for the Commonwealth
Massachusetts
Julia E. Kobick*
William W. Porter
Assistant Attorneys General
Gary Klein
Special Assistant Attorney General
One Ashburton Place
18th Floor
Boston, Massachusetts 02108
julia.kobick@mass.gov
(617) 963-2559
*Counsel of Record

of

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite l 02

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Jonathan F. Mitchell
Mitchell Law PLLC
111 Congress Avenue, Suite 400
Austin, TX 78701
Counsel for Amicus National
Foundation

Shooting

Sports

Joseph G.S. Greenlee
Firearms Policy Coalition
1215 K Street, 17th Floor
Sacramento, CA 95814
Counsel for Amici Cato Institute et al.
Dan M. Peterson
Dan M. Peterson PLLC
3925 Chain Bridge Road, Suite 403
Fairfax, VA 22030
Counsel for Amici National Association of Chiefs of
Police et al.
Stephen P. Halbrook
3925 Chain Bridge Road, Suite 403
Fairfax, VA 22030
Counsel for Amicus African American Gun Association,
Inc.
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB, Suite 706
Boston, MA 02109
Counsel for Amicus National Rifle Association of
America, Inc.

E. Travis Ramey
Burr & Forman LLP

420 North 20th Street, Suite 3400
Birmingham, AL 35203
Counsel for Amici Ninety-Four Members of the United
States House of Representatives

J. Steven Foley

11 Pleasant Street
Worcester, MA 01609
Counsel for Amicus
Amendment, Inc.

Commonwealth

Second

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 6, 2019.

Julie A. Kershner
Becker Gallagher Le g.a ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

~

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

•

•

